U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 27, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Zafer Construction Company v. Army Corps of Engineers,
S.CtNo. 19-154

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 29,
2019, and placed on the docket on August 1, 2019. The government's response is due on
September 3, 2019.
We respectflully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 3, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0 154
ZAFER CONSTRUCTION COMPANY
ARMY CORPS OF ENGINEERS

SAM GDANSKI
GDANSKI LAW PC
517 FOREST AVENUE
TEANECK, NJ 07666
914-589-0015
SAMGDANSKI@GDANSKI.COM

